                  U.S. Department of Agriculture
                     Office of Inspector General
                               Southeast Region




        Audit Report

   Controls Over Chemical and
      Radioactive Materials
at U.S. Department of Agriculture
            Facilities




                         Report No. 50601-9-AT
                                    March 2004
Executive Summary
Controls Over Chemical and Radioactive Materials at U.S. Department of Agriculture
Facilities (Audit Report No. 50601-9-AT)

Results in Brief    Since the terrorist attacks of September 11, 2001, materials that could
                    potentially threaten human health and agricultural production in the United
                    States have been subject to increased public scrutiny. Chemical and
                    radioactive materials used for research at U.S. Department of Agriculture
                    (USDA) laboratories, for example, could become dangerous weapons in the
                    hands of a terrorist. In response to such concerns, we conducted a nationwide
                    audit of management controls and practices related to security of hazardous
                    chemical and radioactive materials used and stored at USDA facilities.

                    The objectives of our audit were to determine whether (1) the Department
                    could account for all chemical and radioactive materials at USDA facilities
                    and could ensure that facilities complied with requirements for the handling,
                    storing, and disposing of such materials and (2) security procedures at
                    individual facilities were adequate to prevent unauthorized access to and
                    removal of chemical and radioactive materials.

                    We found that the Department needs to strengthen controls over hazardous
                    chemical and radioactive materials, specifically in the areas of accountability
                    and security. USDA policies and procedures have traditionally emphasized
                    employee safety – protecting employees from exposure to hazardous
                    materials – and not materials security – protecting materials themselves from
                    unauthorized use or removal. Likewise, current policies do not sufficiently
                    address appropriate safeguards for hazardous materials at USDA facilities.

                    At present, USDA regulates its hazardous chemical and radioactive materials
                    through two major documents: the Safety and Health Manual and the
                    Radiation Safety Handbook. We concluded that, in terms of inventory
                    controls, the Radiation Safety Handbook established by the Department’s
                    Radiation Safety Committee is a satisfactory guide for managing radioactive
                    materials. In contrast, the Department’s Safety and Health Manual provides
                    little in-depth guidance for the control of chemicals at USDA laboratories,
                    which house chemical substances of all hazard classes.

                    Specifically, the 1996 Safety and Health Manual, which is based on
                    Occupational Safety and Health Administration standards, does not contain a
                    list of hazardous chemicals and their corresponding safeguards, nor does it
                    adequately address inventory requirements. Instead, each USDA agency
                    provides its own definition of hazardous chemicals and determines how its
                    laboratories will maintain inventory records. Our audit found that the lack of
                    specific, departmentwide guidelines for the maintenance of chemical



USDA/OIG-A/50601-9-AT                                                                       Page i
                               inventories resulted in inventory control problems at some of the laboratories
                               we visited.

                               Also of concern was the absence of a centralized, comprehensive listing of
                               hazardous chemicals at the agency headquarters level. Without such an
                               inventory, agency managers cannot identify and locate materials at their
                               laboratories easily, nor can the Department ensure the rapid availability of
                               pertinent information in the event of an intentional or accidental release of
                               hazardous chemicals at a USDA laboratory.

                               The Office of Procurement and Property Management (OPPM) had been
                               conducting site security assessments at USDA facilities upon request by
                               various agencies since 2001; however, agencies are only required to
                               implement agreed upon recommended corrective actions when funding
                               becomes available.

                               Finally, our review disclosed that although the Department provided
                               guidance to agencies it does not have policies and procedures specifying the
                               minimum level of background investigation for personnel with access to
                               hazardous materials. As a result, we are concerned that some employees may
                               not have the appropriate background checks for the types and amounts of
                               hazardous materials to which they have access. Our conclusions in this
                               regard were further supported by OPPM’s security assessments, which
                               indicated that students, contractors, and visiting scientists who had access to
                               hazardous materials located at USDA facilities did not always undergo
                               background checks. We urge agency program management to work with the
                               Department to develop specific personnel suitability guidelines for facilities
                               where chemicals and radioactive materials are used and stored.

                               At the time of our audit, Department officials were drafting another
                               document, “USDA Security Policies and Procedures for Laboratories and
                               Technical Facilities,” to address materials security at all non-Biosafety
                               Level (BSL)-3 facilities. 1 The new policy, issued during our audit on
                               April 30, 2003, includes requirements for asset accountability and chemical
                               and radiology security plans for chemical and radioactive materials.

                               We also followed up on prior Office of Inspector General (OIG) audit
                               recommendations to determine if those recommendations had been
                               implemented. We found that the Radiation Safety Staff appropriately
                               implemented the recommendations issued in Audit Report No. 50601-3-At,
                               “USDA Radioactive Material and Waste Management.”


1
    Each biological agent that is considered harmful to humans is assigned a BSL by the Centers for Disease Control and
    Prevention (CDC). BSL-3 laboratories use agents that may cause lethal infections if inhaled. On August 30, 2002, the
    Department issued “USDA Security Policies and Procedures for BSL Level-3 Facilities,” which prescribes specific
    inventory control procedures for all facilities that store BSL-3 pathogens.

USDA/OIG-A/50601-9-AT                                                                                           Page ii
Recommendations
In Brief           We recommend that the Department develop and implement policies and
                   procedures, specifically directed at inventory, monitoring, and physical
                   security, for safeguarding hazardous materials at USDA laboratories.

                   •    We recommend that the Department require routine physical inventories
                        of chemicals in order to provide adequate oversight and to assess risks at
                        its many laboratories. We also recommend that the Department call for a
                        comprehensive, secure inventory, organized by agency and readily
                        accessible by Department managers, of hazardous chemicals stored and
                        used at USDA laboratories.

                   •    To further strengthen oversight of potentially dangerous materials, we
                        recommend that the Department (1) develop a monitoring program for
                        facilities housing chemicals that incorporates site-specific risk
                        assessments and (2) require the agencies to improve security measures
                        over hazardous chemicals and radioactive materials at the laboratories
                        based on the results of site assessments.

                   •    In addition, we recommend that the Department develop and implement
                        policies and procedures specifying the minimum level of suitability
                        requirements and background investigation for personnel with access to
                        hazardous materials.

Agency Response    The Department generally agreed with the findings and recommendations in
                   the report.     However, the Department specifically addresses certain
                   statements in the report, which needed clarification. The Department noted
                   that the USDA Security Policy and Procedures for Laboratories and
                   Technical Facilities addresses physical security and personnel suitability
                   issues, regardless of the asset to be protected. Also, the risk-based approach
                   used for security assessment applies to all facilities with chemicals and
                   radioactive materials. In addition, agencies are required to implement agreed
                   upon security assessments and recommended corrective actions as funding
                   becomes available. The Department's response to the draft report is included
                   as exhibit A of the audit report.

OIG Position       We agree with the actions taken and planned by the Department in response
                   to the report's recommendations. We have accepted management decision on
                   Recommendation No 4. However, to reach management decision on
                   Recommendations Nos. 1, 2, 3, and 5, the Department needs to agree to the
                   recommended corrective actions and provide timeframes for implementation.
                   Actions necessary to achieve management decision are provided in the
                   findings and recommendations section. The report was also revised to clarify
                   the issues concerning policies and procedures for physical security over
                   hazardous materials and security assessments.



USDA/OIG-A/50601-9-AT                                                                     Page iii
Abbreviations Used in this Report

AMS
  Agricultural Marketing Service ............................................................................................................ 1
APHIS
  Animal and Plant Health Inspection Service ........................................................................................ 1
ARS
  Agricultural Research Service .............................................................................................................. 1
BSL
  Biosafety Level ..................................................................................................................................... 6
CAS
  Chemical Abstracts Service .................................................................................................................. 6
CDC
  Centers for Disease Control and Prevention ......................................................................................... 6
CFR
  Code of Federal Regulations ............................................................................................................... 16
ChIM
  Chemical Inventory Management ......................................................................................................... 8
CIP
  Chemical Inventory Program ................................................................................................................ 6
EPCRA
  Emergency Planning and Community Right-to-Know Act ................................................................ 10
FS
  Forest Service........................................................................................................................................ 1
FSIS
  Food Safety and Inspection Service ...................................................................................................... 1
GIPSA
  Grain, Inspection, Packers and Stockyards Administration.................................................................. 1
HSPD
  Homeland Security Presidential Directives ........................................................................................ 12
LEPC
  Local Emergency Planning Committees ............................................................................................. 10
MSDS
  Material Safety Data Sheet ................................................................................................................. 10
NRC
  Nuclear Regulatory Commission .......................................................................................................... 1
NRCS
  Natural Resources Conservation Service .............................................................................................. 1
OIG
  Office of Inspector General .................................................................................................................. 3
OPM
  Office of Personnel Management ....................................................................................................... 17
OPPM
  Office of Procurement and Property Management ............................................................................. 11
OSHA
  Occupational Safety and Health Administration .................................................................................. 1


USDA/OIG-A/50601-9-AT                                                                                                                          Page iv
RSC
  Radiation Safety Committee ................................................................................................................. 2
RSS
  Radiation Safety Staff ........................................................................................................................... 2
RU
  Responsible Users ................................................................................................................................. 3
SERC
  State Emergency Response Commission ............................................................................................ 10
SHMD
  Safety and Health Management Division ............................................................................................. 2
USDA
  U.S. Department of Agriculture ............................................................................................................ 1




USDA/OIG-A/50601-9-AT                                                                                                                        Page v
Table of Contents

Executive Summary ................................................................................................................................. i

Abbreviations Used in this Report ....................................................................................................... iv

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 5

    Section 1. Accountability for Hazardous Materials ....................................................................... 5

        Finding 1             The Department Lacks Standardized Chemical Inventory Requirements and
                              a Centralized Listing of Chemicals at Its Facilities................................................. 6
                                  Recommendation No. 1, for the Department ................................................... 9
                                  Recommendation No. 2, for the Department ................................................... 9
        Finding 2             The Department Needs to Establish a Monitoring Program to Ensure Proper
                              Handling of Hazardous Chemicals ........................................................................ 11
                                  Recommendation No. 3, for the Department ................................................. 12

    Section 2. Security of Hazardous Materials .................................................................................. 14

        Finding 3             The Department Needs to Enhance Security at Facilities Housing
                              Hazardous Materials .............................................................................................. 14
                                  Recommendation No. 4, for the Department ................................................. 15
        Finding 4             The Department Needs to Strengthen Suitability Requirements for
                              Personnel with Access to Hazardous Materials .................................................... 16
                                  Recommendation No. 5, for the Department ................................................. 17

Scope and Methodology........................................................................................................................ 19

Exhibit A – Agency Response .............................................................................................................. 21




USDA/OIG-A/50601-9-AT                                                                                                                     Page vi
Background and Objectives
Background                  Through its various agencies, the U.S. Department of Agriculture (USDA)
                            performs research on animal and plant diseases at laboratory facilities
                            throughout the United States. The Agricultural Research Service (ARS)
                            operates the largest number of laboratories, 243 at 113 locations, and the
                            Forest Service (FS) operates 77 laboratories at 67 locations. Other agencies
                            have fewer laboratories. For example, the Animal and Plant Health
                            Inspection Service (APHIS) has four laboratories at three locations, and the
                            Food Safety and Inspection Service (FSIS) has four laboratories at three
                            locations. Three other agencies, the Agricultural Marketing Service (AMS),
                            Grain Inspection, Packers and Stockyards Administration (GIPSA), and
                            Natural Resources Conservation Service (NRCS), also have laboratories
                            nationwide.

                            These seven USDA agencies use chemical and radioactive materials in
                            numerous ways. Research on animal and plant diseases and food product
                            testing constitute the majority of chemical use. Some agencies also store
                            pesticides and herbicides that contain chemicals. ARS, the largest user of
                            unsealed radioactive materials within USDA 2, employs radioisotopes for
                            genetic research on plants and animals, metabolic studies, and molecular
                            research. As part of its sterile insect release program, APHIS uses
                            radioactive materials to control screwworm, fruit fly, and pink bollworm
                            infestations. APHIS also uses x-ray machines to inspect baggage at airports
                            throughout the country for contraband fruits and vegetables. The National
                            Forest System, overseen by FS, uses nuclear gauges to verify proper
                            construction and maintenance of temporary roads.

                            Regulations Governing Hazardous Materials

                            Two bodies regulate hazardous materials at USDA facilities.           The
                            Occupational Safety and Health Administration (OSHA) oversees safety
                            standards for chemicals, while the Nuclear Regulatory Commission (NRC)
                            administers strict controls over radioactive materials used by the Federal
                            Government.

                            The Atomic Energy Act of 1954 as amended 3 designated NRC as the agency
                            responsible for establishing, licensing, inspecting, and enforcing radioactive
                            materials programs. USDA holds two NRC licenses for radioactive materials
                            possession and use – one broad-scope license for research and development
                            purposes and a second license to perform radiation studies on certain animals,

2
  According to the Radiation Safety Handbook, unsealed sources are radioactive materials that can be easily dispersed
  during routine laboratory procedures due to their liquid, powder, or granular form. In contrast, sealed sources are
  contained and tested to pass specific accident conditions without the release of radioactive material.
3
  Amended by the Energy Reorganization Act of 1974, Public Law 93-438, dated October 11, 1974.
USDA/OIG-A/50601-9-AT                                                                                        Page 1
                   plants, seeds, and infectious agents using irradiators. NRC annually inspects
                   USDA radioactive materials programs by reviewing records, materials use,
                   management oversight, facilities, equipment, and all other functions related
                   to radioactive materials.

                   OSHA regulates chemical hazards in the workplace and requires that each
                   Federal agency establish and maintain an effective and comprehensive OSHA
                   program. Under OSHA requirements, employers must inform employees of
                   workplace hazards and instruct them to respond appropriately when exposed
                   to these hazards. Additionally, OSHA conducts workplace inspections to
                   ensure compliance with its standards.

                   USDA Policies Encompassing NRC and OSHA Guidelines

                   The Department’s Safety and Health Management Division (SHMD) advises
                   agency officials in the planning, development, and implementation of policies
                   and programs that affect the safety and health of USDA employees. In
                   September 1996, SHMD issued the Safety and Health Manual, which
                   incorporates both OSHA and NRC requirements. Each USDA agency may
                   adopt the manual as its required handbook of Safety and Health program, or
                   it may supplement the manual to comply with specialized regulatory
                   requirements that apply to the agency’s work. In practice, agencies further
                   delegate implementation of the manual to their field laboratories.

                   In general, the Safety and Health Manual establishes requirements for the
                   development and implementation of USDA occupational safety, health, and
                   Radiation Safety Programs. It requires that agencies maintain inventory
                   records, follow instructions on material safety data sheets provided by
                   chemical manufacturers, and train staff regarding potential exposures to
                   chemicals. Agencies that operate laboratory facilities housing hazardous
                   chemicals must publish and implement a written hazard communication
                   program and a laboratory chemical hygiene program. Another part of the
                   manual mandates that all facilities comply with applicable Federal, State, and
                   local laws governing the use of radioactive material and equipment.
                   However, the manual does not require departmental oversight or compliance
                   reviews of individual agencies’ controls over chemicals, nor does it provide
                   specific requirements to ensure that hazardous materials are secure based on
                   their risk level.

                   To supplement the Safety and Health Manual, the Radiation Safety
                   Handbook contains departmentwide policies for the control of radioactive
                   materials. The Department’s Radiation Safety Committee (RSC) establishes
                   the policies contained in the Radiation Safety Handbook and monitors
                   compliance by conducting annual site reviews at selected facilities. The
                   committee also performs routine reviews of the Radiation Safety Staff (RSS),
                   which is responsible for the day-to-day management of the Department’s

USDA/OIG-A/50601-9-AT                                                                     Page 2
                   Radiation Safety Program. Under the handbook’s requirements, the RSS
                   maintains a perpetual inventory of all radioactive materials at USDA
                   facilities to ensure proper use and storage of those materials.

                   In addition, RSS authorizes USDA employees to use radioactive materials
                   through an application and permitting process, and it inspects locations to
                   ensure compliance with the terms of the permit. Generally, the RSS inspects
                   locations every 3 to 5 years, based on a location’s radioisotope use. At the
                   facility level, Location Radiation Protection Officers and individual permit
                   holders take responsibility for the control, use, and disposal of radioactive
                   material and equipment.

                   As of January 1, 2002, RSS reported that it issued 404 permits for possession
                   and use of radioactive materials to USDA staff. Individual permit holders or
                   responsible users (RU) managed material that was also used by another 1,230
                   associate users. RU’s possessed about 1,234 unsealed sources, 373 sealed
                   sources, 23 irradiators, and 240 pieces of x-ray equipment. This material was
                   located at 197 USDA locations in 44 States, the District of Columbia, Virgin
                   Islands, Mexico, and Guatemala.

                   1998 Audit of Radioactive Material at USDA Facilities

                   In March 1998, the Office of Inspector General (OIG) issued Audit Report
                   No. 50601-3-At, “USDA Radioactive Material and Waste Management.”
                   The report stated that although the Department had significantly improved
                   management of radioactive materials after NRC sanctioned USDA in
                   1993 for inadequate supervision of its Radiation Safety Program,
                   management control systems needed additional improvement.

                   OIG recommended that RSS: (1) develop and implement standard inspection
                   instruments; (2) increase the frequency and scope of facility inspections;
                   (3) survey facilities to identify all radioactive material burial sites on USDA
                   property and conduct required site inspections; (4) maintain complete and
                   accurate inventories of radioactive materials, including waste; (5) develop
                   procedures to account for all radioactive material inventories when permits
                   are terminated; (6) establish timeliness and documentation standards for
                   customer service actions; (7) ensure that all Local Radiation Protection
                   Officers receive timely training; and (8) ensure that such officers (a) are
                   properly permitted to handle radioactive material waste; (b) comply with
                   waste handling, storage, and disposal requirements; and (c) conduct annual
                   RU compliance inspections.

Objectives         The objectives of this audit were to determine whether (1) the Department
                   could account for all chemical and radioactive materials at USDA facilities
                   and could ensure that those facilities complied with requirements for the
                   control of chemical and radioactive materials and (2) security procedures at

USDA/OIG-A/50601-9-AT                                                                      Page 3
                   individual facilities were adequate to prevent unauthorized access and
                   removal of chemical and radioactive materials, including whether personnel
                   with access to those materials had proper clearances.

                   We also followed up on prior OIG audit recommendations to determine if
                   those recommendations had been implemented. We found that RSS
                   appropriately implemented the recommendations issued in Audit Report
                   No. 50601-3-At, “USDA Radioactive Material and Waste Management.”

                   Our review was performed during the period May through
                   November 2002. We visited 33 laboratories at 21 sites across the United
                   States. See the Scope and Methodology section at the end of this report for
                   details.




USDA/OIG-A/50601-9-AT                                                                  Page 4
Findings and Recommendations
Section 1. Accountability for Hazardous Materials

                     USDA regulates its hazardous chemicals and radioactive materials largely
                     through two documents: the Safety and Health Manual and the Radiation
                     Safety Handbook. We concluded that, in terms of inventory controls and
                     monitoring of radioactive materials, the Radiation Safety Handbook
                     established by the Department’s RSC is a satisfactory guide. We found no
                     discrepancies with radioactive materials inventory information during our site
                     visits to laboratories that stored and used such materials, due in part to the
                     departmentwide perpetual inventory system maintained by RSC.

                     In contrast, the Safety and Health Manual contains no specific,
                     departmentwide guidelines for the control of chemicals. Although the
                     manual requires inventories of all hazardous chemicals housed at USDA
                     facilities, it allows for different interpretations of departmental policies,
                     which neither define hazardous chemicals and their corresponding safeguards
                     nor prescribe standard methods for conducting chemical inventories. Instead,
                     each agency determines how its laboratories will maintain inventory records
                     and includes this method in its policies and procedures. Consequently,
                     laboratory policies disagreed about which chemicals were hazardous and
                     required special safeguards. At some laboratories, we found inventory
                     discrepancies and control problems that might have been prevented with
                     stronger departmental guidance.

                     Furthermore, the Department does not require a centralized, consolidated
                     inventory of chemicals organized by agency. At the time of our audit,
                     managers could not account for the types, amounts, and locations of
                     hazardous chemicals in their laboratories, nor could they ensure that
                     information regarding those materials would be readily available in the event
                     of an intentional or accidental release. Agency and Department officials need
                     a consolidated chemical inventory in order to rapidly and accurately identify
                     facilities at which hazardous chemicals are stored and used.

                     Additionally, without a centralized repository for chemical inventories taken
                     at individual laboratories, agency and Department management cannot assess
                     the risks associated with chemicals housed at USDA facilities or ensure that
                     security measures are sufficient at all times. While RSC adequately monitors
                     the Department’s radioactive materials programs, departmental policies do
                     not require facilities housing chemicals to undergo compliance reviews or
                     site-specific risk assessments.




USDA/OIG-A/50601-9-AT                                                                       Page 5
Finding 1                     The Department Lacks Standardized Chemical Inventory
                              Requirements and a Centralized Listing of Chemicals at Its
                              Facilities

                              All of the 33 laboratories we visited kept chemical inventories in compliance
                              with the Safety and Health Manual, but the maintenance of those inventories
                              and the information included in them depended on policies and procedures
                              developed by each agency. At the time of our audit, Department officials
                              were drafting another document, “USDA Security Policies and Procedures
                              for Laboratories and Technical Facilities,” to address security at all
                              non-Biosafety Level (BSL)-3 facilities. 4 However, like the Safety and Health
                              Manual, the draft document did not adequately address chemical inventory
                              procedures. 5

                              In the absence of specific departmental guidance, the types of chemical
                              inventories required by the seven agencies we reviewed varied greatly, and
                              inventories at individual laboratories were sometimes inconsistent and not
                              always kept up to date.

                              Inventory Policies Vary by Agency

                              AMS directives require an inventory listing of hazardous chemicals
                              maintained onsite and updated as necessary. FS policies require maintenance
                              of a hazardous chemicals inventory, and APHIS policies specifically call for
                              annual inventory records of hazardous materials. NRCS safety officers are
                              required to conduct inventories of each workplace under their supervision
                              and maintain an inventory list of identified chemicals, updated at least
                              annually. GIPSA's policies provide even more guidance, indicating that
                              personnel should examine stored chemicals at least annually for deterioration
                              and container integrity. In addition, GIPSA requires personnel to conduct
                              periodic inventories of chemicals outside the storage area and to dispose of
                              unneeded items.

                              In comparison to the other agencies whose laboratories use and store
                              hazardous chemicals, ARS and FSIS provide the most detailed inventory
                              control procedures. ARS’ policies require a master chemical agents
                              inventory list, maintained at each ARS location and updated at least annually,
                              that identifies all hazardous agents, including the chemical name, Chemical
                              Abstracts Service (CAS) Registry Number, 6 quantity, and location.

4
  Each biological agent that is considered harmful to humans is assigned a BSL by the Centers for Disease Control and
  Prevention (CDC). BSL-3 laboratories use agents that may cause lethal infections if inhaled.
5
  Issued April 30, 2003, the policy briefly mentions a departmental Chemical Inventory Program (CIP) for tracking and
  reporting storage and use of hazardous materials. However, the policy refers back to the Safety and Health Manual as the
  source of departmental guidance for CIP.
6
  A CAS Registry Number is a unique numeric identifier that designates a specific chemical substance.
USDA/OIG-A/50601-9-AT                                                                                             Page 6
                   Likewise, the FSIS Laboratory Environment, Health, and Safety Handbook
                   requires a running inventory of all hazardous materials that shows the
                   quantities of materials acquired as well as the dates of acquisition and
                   disposition. In addition to laboratory inventories, FSIS personnel must
                   inventory chemical storage and use areas at least annually.

                   Inventory Problems Observed

                   Because of the lack of departmental guidance related to chemical inventories,
                   we found inventory control problems at some USDA laboratories. At one FS
                   laboratory, which recorded inventory using a basic spreadsheet, neither the
                   purchasing agent nor the receiving staff documented new chemicals, and
                   laboratory personnel did not update the inventory as they used and discarded
                   items. In addition, the process for tracking the use of chemicals at the
                   laboratory was not functioning. Laboratory technicians who took chemicals
                   from the chemical storage room filled out a slip of paper to document the
                   removal, but these slips were used to notify the purchasing agent when
                   supplies were running low rather than to update the inventory. Records had
                   not been updated at this facility since the last physical inventory was taken
                   2 years ago.

                   We noted similar problems at an ARS BSL-3 laboratory that had not updated
                   its inventories annually as required by ARS policies. We found that 8 of the
                   15 scientists had not performed any chemical inventory updates since 2001.
                   When questioned, the safety officer at this site indicated that it was time to
                   update the inventories.

                   In addition, we found discrepancies and other problems related to inadequate
                   chemical inventory control procedures at 14 of the 33 laboratories we visited
                   (11 ARS, 2 FS, and 1 FSIS). We noted chemicals listed on the inventories
                   that were not located in the laboratories, and we found chemicals in the
                   laboratories that were not listed on the inventories. Laboratories attributed
                   these discrepancies to employees who used or disposed of chemicals without
                   removing them from the inventory records.

                   At one ARS laboratory, we selected two highly toxic chemicals from the
                   inventory list provided, one of which (epinephrine) we could not locate. We
                   were told that a new scientist had arrived at the facility and cleaned the
                   former chemist’s refrigerator, disposing of the chemical without recording
                   the disposal in the inventory record. Upon our request, the laboratory
                   updated the inventory to reflect the discarded chemical. At four other ARS
                   laboratories, researchers attributed inventory discrepancies to transferring
                   chemicals from one scientist to another or from one room to another without
                   proper documentation in the inventory records.



USDA/OIG-A/50601-9-AT                                                                     Page 7
                               Some laboratories implemented a computerized barcoding system to maintain
                               better control over their inventories, but none of the seven agency policies we
                               reviewed required this type of system. A barcode inventory system was in
                               use at the FSIS site we visited, three ARS sites, and one AMS site. One ARS
                               laboratory purchased a computerized system to track chemical inventories as
                               a result of September 11, 2001. The same laboratory also purchased a
                               separate stand-alone server to manage its restricted-access inventory system
                               and material safety data sheets.

                               Another ARS laboratory had installed a computer system called ChIM
                               (Chemical Inventory Management), which labels each container with a
                               barcode, CAS number, and chemical tag number (a unique number assigned
                               to each chemical container at the site). Employees use handheld scanners to
                               update the system as items are purchased, transferred through the lab, and
                               disposed. Although this system was one of the best observed during our
                               audit, the laboratory still experienced inventory deficiencies because
                               employees moved materials from location to location without recording
                               changes in the computerized system.

                               Officials Recognize Need for Improved Inventory Procedures

                               Department officials agreed with the need to create new chemical inventory
                               policies similar to those for radioactive materials and biological agents
                               described in the Radiation Safety Handbook and “USDA Security Policies
                               and Procedures for BSL-3 Facilities,” respectively. 7

                               Officials stated that a departmentwide definition of hazardous chemicals
                               should be developed and transmitted through the Safety and Health Manual
                               or another issued document for agency implementation. Additionally,
                               officials concurred that each agency should maintain a consolidated inventory
                               of chemicals, enabling the Department to access information quickly and
                               efficiently in the event of an attack, release, or other catastrophe at one of
                               USDA’s laboratory facilities.

                               Also, in our meeting with USDA officials, we suggested that the Department
                               issue guidelines for identifying chemical safety levels in laboratories modeled
                               on the classification of biological agents. We presented officials with a
                               document drafted by CDC researchers that provides criteria for classifying
                               chemicals based on their hazard levels and laboratory use. The guidelines
                               described in the CDC document could also help chemical safety programs
                               comply with OSHA’s laboratory standards.



7
     Dated August 30, 2002, the policy prescribes specific inventory control procedures for all facilities that store
    BSL-3 pathogens. “USDA Policies and Procedures for Laboratories and Technical Facilities” had not yet been issued at
    the time of our conversation with Department officials.
USDA/OIG-A/50601-9-AT                                                                                           Page 8
Recommendation No. 1, for the Department

                   Develop and implement new departmentwide policies and procedures for
                   chemical inventories that specifically define hazardous chemicals.

                   Agency Response. In the March 3, 2004, response, the Homeland
                   Security Director stated, "We concur with this recommendation, especially
                   the need to specifically define hazardous materials. There are literally tens of
                   thousands of chemicals present in typical chemistry labs. Requirements for
                   inventory and monitoring of them all are impractical. The Department
                   should focus on a list of chemicals of known security hazards."

                   OIG Position. We concur with the planned actions of the Department to
                   focus on a list of chemicals of known security hazards. However, in order to
                   reach management decision on this recommendation, the Department needs
                   to provide a timeframe for developing policies and procedures that define
                   chemicals of known security hazards.

Recommendation No. 2, for the Department

                   Develop and implement new departmentwide policies that instruct facilities
                   to compile a secure, comprehensive inventory of hazardous chemicals (see
                   Recommendation No. 1) that they use and store. Require that the inventory
                   record contains the type, amount, and location of all hazardous chemicals,
                   and that a listing of such hazardous chemicals be forwarded to managers at
                   the Department level at least annually.

                   Agency Response. In the March 3, 2004, response, the Homeland
                   Security Director stated:

                          Agencies should not be required to maintain a comprehensive,
                          consolidated national chemical inventory because it would be
                          extremely resource intensive, partially redundant, and add
                          little or not additional value. The reason stated for requiring
                          such an inventory is that an Agency would be able to provide
                          information in the event of an intentional or accidental
                          release. Federal, State and local spill response and release
                          plans and procedures have already been established under
                          various Environmental Protection Agency acts as follows:

                          The Clean Water Act and Comprehensive Environmental
                          Response, Compensation and Liabilities Act, provide for the
                          development of a National Contingency Plan which "provide
                          for efficient, coordinated and effective action to minimize
                          damage from oil and hazardous substances discharges,
                          including containment, dispersal, and removal of oil and
                          hazardous substances." These laws establish the National
USDA/OIG-A/50601-9-AT                                                                       Page 9
                          Response Center, the sole Federal point of contact for
                          reporting oil and chemical spills; and, the National Response
                          System * * * the government's mechanism for emergency
                          response to discharges of oil and the release of chemicals into
                          the environment, including acts of terrorism.

                          The Emergency Planning and Community Right-to-Know Act
                          (EPCRA), provides an infrastructure at the state and local
                          levels to plan for chemical emergencies. Facilities that store
                          or use certain chemicals are subject to various reporting
                          requirements. EPCRA was passed in response to concerns
                          regarding the environmental and safety hazards posed by the
                          storage of handling of toxic chemicals.

                          EPCRA Section 302, the emergency planning section of the
                          law, is designed to help communities prepare for and respond
                          to emergencies involving hazardous substances.           Every
                          community in the United States must be part of a
                          comprehensive plan. The Governor of each state has
                          designated a State Emergency Response Commission (SERC).
                          The SERCs in turn have designated about 3,500 local
                          emergency planning districts and appointed Local Emergency
                          Planning Committees (LEPC) for each district. Any facility
                          that has any of the listed chemicals at or above its threshold
                          planning quality must notify the SERC and LEPC within
                          60 days after they first receive a shipment or produce the
                          substance on site.

                          Also under * * * OSHA regulations, facilities must maintain a
                          material safety data sheet (MSDS) for any hazardous
                          chemicals stored or used in the workplace. Approximately
                          500,000 products have MSDSs. EPCRA, Section 311 requires
                          facilities that have MSDSs for chemicals held above certain
                          quantities to submit either copies of their MSDSs or a list of
                          MSDS chemicals to SERC, LEPC, and the local fire
                          department. Facilities that need to report under EPCRA
                          section 311 must also submit an annual inventory report for
                          the same chemicals under Section 312 to the SERC, LEPC,
                          and the local fire department.

                   OIG Position.       The Department’s response does not address the
                   recommended action and assumes that we are requiring agencies to maintain
                   a comprehensive, consolidated national chemical inventory of all chemicals.
                   The recommendation states that each facility should compile an inventory of
                   hazardous chemicals and that only a listing of such hazardous chemicals be
                   forwarded to managers at the Department level, at least annually. The
                   Department’s response cites several laws and regulations, which specify
                   reporting requirements under certain conditions for chemicals. Since this is
USDA/OIG-A/50601-9-AT                                                                   Page 10
                   available and complied by USDA facilities it should also be shared with
                   agency managers at the Department level. To reach management decision for
                   this recommendation, the Department must agree to develop and implement
                   polices that instruct facilities to compile a secure, comprehensive inventory
                   of hazardous chemicals and that a listing of such hazardous chemicals be
                   forwarded to managers at the Department level, at least annually. The
                   Department also needs to provide a timeframe for developing policies and
                   procedures.


Finding 2          The Department Needs to Establish a Monitoring Program to
                   Ensure Proper Handling of Hazardous Chemicals

                   While we found that the routine inspections conducted by RSC and staff
                   provided adequate oversight of radioactive materials at USDA facilities, the
                   Department does not monitor or evaluate programs related to hazardous
                   chemicals. Specifically, at the time of our audit, the Department did not
                   require site-specific risk assessments at all laboratory facilities to ensure that
                   hazardous chemicals were appropriately secured. Rather, individual agencies
                   were responsible for developing their own laboratory inspection policies and
                   making sure that those policies comply with all applicable laws and
                   regulations.

                   All of the agency policies we reviewed, excluding those of NRCS, require
                   some type of inspection of laboratory facilities or equipment. FSIS’ policies
                   require quarterly safety inspections and spot-checks of stored chemicals,
                   whereas FS’ policies require annual inspections. AMS’ policies mandate
                   annual inspections of low-hazard workplaces and more frequent inspections
                   of high-hazard laboratories. APHIS, ARS, and GIPSA require regular
                   inspections, but they do not specify how often the inspections must be
                   performed. Although inspection standards are in place at these agencies,
                   management could not ensure routine and consistent monitoring of chemical
                   programs because inspections were conducted by staff members at individual
                   laboratories instead of by agency personnel.

                   In October 2001, the Department’s Office of Procurement and Property
                   Management (OPPM) began conducting site security assessments at USDA
                   laboratories whose agencies requested and funded the visits. OPPM
                   scheduled visits to approximately 150 sites during the period
                   October 2001 through January 2003, and completed over 70 assessments at
                   the time of our audit. The purpose of these voluntary assessments is to
                   ensure that inventory controls, containment methodologies, and facility
                   security are adequate. Upon completion of an assessment, OPPM issues a
                   report containing an overview of existing security at the facility and
                   recommendations for remedying security weaknesses.            However, the
                   Department does not require agencies to implement the recommendations,
                   and OPPM does not follow up to ensure that corrective actions are taken.

USDA/OIG-A/50601-9-AT                                                                       Page 11
                   We reviewed the results of OPPM’s site security assessments at
                   10 sites (22 laboratories) that were included in our audit sample. We noted
                   that OPPM’s security assessments were comprehensive and encompassed
                   multiple disciplines, including both internal and external threats to chemical,
                   biological, and radioactive materials as well as to information systems.
                   OPPM identified critical problems with inventory programs, physical
                   security, and access controls for students and contractors, along with less
                   critical issues such as overgrown shrubbery, inadequate lighting, and
                   outdated computer programs. None of the information presented by OPPM
                   contradicted the issues we identified during our site visits.

                   While the activities of OPPM contribute to a level of departmental
                   involvement in the security of hazardous chemicals, site assessments are
                   performed on a voluntary basis, without the authority of a departmental
                   requirement. Moreover, the Department does not impose a timetable on the
                   reviews or require agencies to correct instances of noncompliance. We
                   therefore concluded that the Department needs to develop a formal program
                   to ensure routine and consistent monitoring of sites that house hazardous
                   chemicals. As part of this monitoring program, the Department needs to
                   require site-specific risk assessments at all USDA laboratory facilities to
                   ensure that security is commensurate with the materials housed at those
                   facilities.

Recommendation No. 3, for the Department

                   Develop specific departmentwide policies and procedures for routine
                   monitoring and compliance reviews at facilities housing hazardous
                   chemicals, including requirements for site-specific risk assessments, and
                   ensure agency implementation.

                   Agency Response. In the March 3, 2004, response, the Homeland
                   Security Director stated:

                          Departmental Administration, * * * OPPM is developing an
                          integrated physical security policy that will apply to all USDA
                          Agencies nationwide. To further provide processes and
                          procedures to implement the policy, a Physical Security
                          Handbook has been developed to assist USDA Agencies in
                          addressing security concerns within their own unique
                          environments. The policy and Handbook have been created
                          from such sources as: (a) like agency security requirements,
                          (b) ISC Security Design Criteria, (c) industrial best security
                          practices, (d) current laws and regulations, (e) Homeland
                          Security Presidential Directives [HSPD], and (f) findings from
                          over 200 USDA security assessments. In compliance with the
                          recently released * * * HSPD-9, Defense of United States
                          Agriculture and Food, OPPM will further define, in the

USDA/OIG-A/50601-9-AT                                                                    Page 12
                          Handbook, procedures for monitoring and compliance reviews
                          required on a biennial schedule.

                   OIG Position. We concur with the planned actions of the Department to
                   develop an integrated physical security policy that will apply to all USDA
                   agencies nationwide. However, in order to reach management decision on
                   this recommendation, the Department needs to provide a timeframe for
                   developing the integrated physical security policy.




USDA/OIG-A/50601-9-AT                                                                Page 13
Section 2. Security of Hazardous Materials

                    Past and current USDA policies and procedures have focused on employee
                    safety rather than materials security.       We found that the lack of
                    departmentwide security requirements resulted in deficiencies related to
                    physical security of chemicals and/or radioactive materials at five of the
                    33 USDA laboratories we visited. There were also no departmentwide
                    requirements for determining the position sensitivity level, type of clearance
                    (if applicable), and type of investigation appropriate for personnel with
                    access to chemical and radioactive materials. As a result, officials could not
                    ensure that they had properly safeguarded hazardous materials against
                    unauthorized access or removal.

                    On April 30, 2003, the Department issued “USDA Security Policies and
                    Procedures for Laboratories and Technical Facilities,” which was in draft at
                    the time of our audit. The policy applies to all non-BSL-3 facilities and it
                    addresses physical security requirements for all USDA facilities.


Finding 3           The Department Needs to Enhance Security at Facilities Housing
                    Hazardous Materials

                    While departmental regulations did not specifically prescribe appropriate
                    levels of physical security at USDA facilities housing chemical and
                    radioactive materials, 26 of the 33 laboratories we visited had enhanced
                    physical security since the events of September 11. These improvements
                    included security system upgrades and stricter requirements for employees
                    and visitors. For example, the GIPSA laboratory and an ARS facility that
                    housed six laboratories had both installed electronic key card systems.
                    Similarly, an FS laboratory installed proximity card readers on all entrance
                    doors, as well as security cameras, gates, and padlocks throughout the
                    facility.

                    Five of the laboratories we visited had also developed new security
                    procedures. Fourteen laboratories now require exterior doors and most
                    interior laboratory doors to remain locked at all times, as opposed to past
                    policies that allowed doors to remain unlocked during working hours. Some
                    laboratories that did not have employee or visitor identification systems prior
                    to September 11 now require employees and visitors to wear identification
                    badges at all times while on the premises. The FSIS site we visited
                    implemented even more stringent controls by requiring visitors to wear either
                    a green or red badge—green indicating unrestricted access and red mandating
                    an escort throughout the facility.

                    Although many of the laboratories we visited had addressed security
                    concerns, we found security deficiencies at 5 of the 33 laboratories we
                    visited. At one FS laboratory, access to the chemical storage building was

USDA/OIG-A/50601-9-AT                                                                     Page 14
                   not restricted. Through discussions with laboratory personnel, we determined
                   that 120 individuals had access to the building, including accounting
                   technicians, secretaries, and computer specialists. At an NRCS site, every
                   door at the facility opened with the same key, allowing unrestricted access to
                   all buildings, including the building in which herbicides and pesticides were
                   stored. Outer doors at another ARS laboratory remained unlocked even
                   though the laboratory’s policies required all doors to be locked each night
                   and double-checked by a laboratory technician and a security patrol.

                   Subsequent to our audit, the Department issued “USDA Security Policies and
                   Procedures for Laboratories and Technical Facilities,” which calls for
                   physical security systems based on site-specific risk assessments. At the time
                   of our audit, USDA intended to implement the policy using a Risk
                   Management Approach, which involves identifying actions that reduce risk
                   and mitigate the consequences of an adverse action or security breach. The
                   new policy addresses physical security requirements and security assessments
                   for sites housing hazardous materials.

Recommendation No. 4, for the Department

                   Evaluate the results of site security assessments (see Recommendation
                   No. 2) and instruct agencies to implement corrective measures after
                   prioritizing the recommendations and determining the laboratories with the
                   most critical needs.

                   Agency Response. In the March 3, 2004, response, the Homeland
                   Security Director stated:

                          Departmental Administration * * * OPPM utilizes a Risk
                          Management Methodology which established a USDA
                          standard security assessment process for reviewing all USDA
                          facilities nationwide and their assets, to include hazardous
                          materials. To date, physical security assessments have been
                          completed on all identified mission critical facilities. OPPM,
                          through the security assessment and based on the established
                          methodology, identifies threats and risks to mission critical
                          assets.     These vulnerabilities are then examined and
                          recommendations to mitigate the threat/risk are made to the
                          Agency. It is then up to the Agency to accept or reject any
                          recommendations put forward. If a recommendation is
                          accepted and funded, it is the responsibility of the Agency to
                          implement and monitor those approved recommendations.
                          Follow-up of implementation is then monitored in a
                          compliance review conducted every 2 years.

                   OIG Position. We accept management decision on this recommendation.



USDA/OIG-A/50601-9-AT                                                                    Page 15
Finding 4                       The Department Needs to Strengthen Suitability Requirements
                                for Personnel with Access to Hazardous Materials

                                The current Safety and Health Manual does not provide adequate security
                                controls to prevent unauthorized access or removal of hazardous chemicals
                                from USDA laboratories. Specifically, the Department does not have
                                policies and procedures specifying the minimum level of suitability
                                requirements and background investigation for personnel with access to
                                hazardous materials, although OPM and the Department of Defense have
                                issued governmentwide guidance. 8 For security of radioactive materials, the
                                Radiation Safety Handbook (section 4.2) makes the permit holder responsible
                                for ensuring that only authorized individuals have access to radioactive
                                materials. In the case of theft or loss of radioactive materials, the permit
                                holder is required to notify USDA officials, who then notify the NRC.

                                “USDA Security Policies and Procedures for Laboratories and Technical
                                Facilities” sets forth suitability requirements for USDA laboratory personnel,
                                including collaborators, cooperators, university personnel, and contractors.
                                According to the recent policy, agencies are responsible for designating each
                                position’s risk based on its documented duties. However, the policy does not
                                specifically address personnel suitability guidelines for facilities where
                                chemical and radioactive materials are used and stored.

                                Consequently, we are concerned about the adequacy of personnel suitability
                                procedures for employees at USDA laboratories housing chemical and
                                radioactive materials. We found that although the Department provided
                                guidance to agencies, it does not have policies and procedures specifying the
                                minimum level of suitability requirements and background investigation for
                                personnel with access to these potentially dangerous materials.

                                Based on our discussions with USDA officials, we learned that all personnel
                                who had access to chemical and radioactive materials had not received
                                background checks. Also, the results of OPPM’s site security assessments
                                indicated that USDA facilities did not always conduct background checks for
                                students, contractors, or visiting scientists who had access to hazardous
                                materials.

                                Some laboratories, however, had taken the initiative to address personnel
                                suitability issues. We found that, as a result of September 11, 2001, one ARS
                                laboratory director independently requested that each research leader perform
                                a thorough review of all facility personnel, regardless of employment status.
                                He specifically required research leaders to document the presence and
                                purpose of non-Federal individuals at the facility.

8
    Code of Federal Regulations (CFR) Title 32, Part 147-"Adjudicative Guidelines for Determining Eligibility for Access to
    Classified Information" and CFR Title 5, Part 731-"Suitability and Part 732-National Security Positions."
USDA/OIG-A/50601-9-AT                                                                                            Page 16
                   Similarly, the director of the AMS laboratory we visited kept detailed records
                   on all temporary and contract employees. The director required background
                   checks for temporary employees and maintained documentation such as
                   copies of social security cards, driver’s licenses, fingerprints, and birth
                   certificates. The director required similar documentation, including a
                   criminal record check, for individuals working under a contract janitorial
                   service.

                   We concluded that the Department needs to implement consistent methods
                   for determining the appropriate position sensitivity designations and
                   minimum level of suitability requirements and background investigation for
                   personnel with access to chemical or radioactive materials.

Recommendation No. 5, for the Department

                   Develop and implement departmentwide policies and procedures specifying
                   the minimum level of suitability requirements and background investigation
                   for personnel with access to hazardous chemicals or radioactive materials.

                   Agency Response. In the March 3, 2004, response, the Homeland
                   Security Director stated:

                          The Department requires agencies to make position sensitivity
                          designation decisions at the time a position is established and
                          classified. The Office of Personnel Management [OPM]
                          requires a public trust risk level determination and
                          corresponding background investigation for all positions,
                          therefore locations with hazardous chemicals or radioactive
                          materials will be automatically covered.           With limited
                          resources, USDA has had to set priorities for risk level
                          classifications of positions. Risks levels for all positions with
                          access to Select Agents have been determined and the
                          appropriate background investigations completed for current
                          employees, cooperators, and contractors, and clearances for
                          new employees are being submitted in a timely manner. Until
                          investigations have been favorably adjudicated, full escort
                          requirements remain in effect. Positions at the 8 remaining
                          Priority 1 ARS locations are currently being reviewed and
                          investigation requests are being sent to OPM. Other locations
                          will be handled in the same priority order as the security
                          upgrades.

                          Again, if agency program management would like a specific
                          Department Regulation or statement for the Safety and Health
                          Manual mandating the minimum level of background
                          investigation required, PDSD will provide the draft language.

USDA/OIG-A/50601-9-AT                                                                     Page 17
                   OIG Position. We concur with the Department’s response. However, to
                   reach management decision for this recommendation, the Department must
                   agree to develop and implement specific departmental regulations mandating
                   the minimum level of suitability requirements and background investigation
                   for personnel with access to hazardous chemical or radioactive materials.




USDA/OIG-A/50601-9-AT                                                                Page 18
Scope and Methodology
                   The audit was conducted in accordance with generally accepted government
                   auditing standards during the period of fiscal years 2000 through
                   2002. Site visits were performed from June through November 2002. This
                   review covered the Department’s and seven agencies’ (ARS, APHIS, FSIS,
                   FS, AMS, GIPSA, and NRCS) management controls and practices involving
                   chemical and radioactive materials.

                   Agency facilities were judgmentally selected and visited based on the results
                   of Headquarters-level audit coverage and evaluation of departmental and
                   agency internal controls. Specifically, the criteria for selection included: the
                   results of previous OIG, Department, and agency internal reviews that noted
                   deficiencies; recommendations made by agency headquarters, RSS, and
                   agency officials; and the number of radioactive material permits held by
                   individuals located at facilities. We contacted officials from each agency to
                   determine the locations of facilities housing chemicals, since no universe or
                   inventory was kept at the departmental level.

                   We performed audit work at 33 laboratories located at 21 sites throughout the
                   United States. Our total sample included 25 ARS laboratories at 13 sites;
                   3 FS laboratories at 3 sites; and 1 laboratory each operated by AMS, APHIS,
                   FSIS, GIPSA, and NRCS. Thirty-two laboratories in our sample handled and
                   stored chemicals, while 30 of the laboratories reviewed had radioactive
                   materials. Our review did not include APHIS’ Wildlife Services facilities,
                   since these facilities were recently reviewed under another OIG audit titled,
                   "APHIS’ Wildlife Services Control Over Hazardous Materials Inventory"
                   (Audit No. 33001-05-Hy).

                   As of January 1, 2002, 404 permits to possess and use radioactive material
                   had been issued to USDA staff. Individual permit holders or RU’s managed
                   material used by another 1,230 associate users. The RU's possessed about
                   1,234 unsealed sources (radioactive isotopes in chemical compounds),
                   373 sealed sources (primarily isotopes in electron capture detectors and
                   nuclear gauges), 23 irradiators, and 240 pieces of x-ray equipment (x-rays
                   and electron microscopes). This material was located at 197 USDA locations
                   or facilities in 44 States, the District of Columbia, Virgin Islands, Mexico,
                   and Guatemala. Similar information was not available at a departmental
                   level for determining the universe for chemicals. However, based on
                   information provided by each agency at our request, we determined that the
                   following numbers of facilities had chemicals: AMS-25, APHIS-21,
                   ARS-374, FS-450, FSIS-4, GIPSA-11, and NRCS-24.




USDA/OIG-A/50601-9-AT                                                                     Page 19
To accomplish the audit objectives, our review consisted of the following:

                          •   Research of applicable laws and regulations, USDA policies and
                              procedures, and respective agencies’ policies and procedures;

                          •   Review and followup on previous OIG reports;

                          •   Review of NRC inspections of USDA;

                          •   Review of the process and reports of the OPPM site security assessments
                              for selected field facilities;

                          •   Interviews with responsible departmental officials from the USDA
                              OPPM, the SHMD of the Office of Human Resources Management, the
                              USDA RSS and the USDA RSC;

                          •   Review of USDA radioactive material permit holder files maintained by
                              the RSS;

                          •   Review of RSS inspections of permit holders;

                          •   Review of annual audits of the RSS performed by RSC members;

                          •   Interviews with laboratory officials responsible for storage, use, and
                              disposal of chemical and radioactive materials;

                          •   Reconciliations and spot-checks using chemical and radioactive material
                              inventories provided by laboratory officials to identify discrepancies; and

                          •   Interviews with State agency officials responsible for regulating
                              hazardous and radioactive waste at locations corresponding to selected
                              field facilities.




USDA/OIG-A/50601-9-AT                                                                           Page 20
Exhibit A – Agency Response
                              Exhibit A - Page 1 of 5




USDA/OIG-A/50601-9-AT                      Page 21
Exhibit A – Agency Response
                              Exhibit A - Page 2 of 5




USDA/OIG-A/50601-9-AT                      Page 22
Exhibit A – Agency Response
                              Exhibit A - Page 3 of 5




USDA/OIG-A/50601-9-AT                      Page 23
Exhibit A – Agency Response
                              Exhibit A - Page 4 of 5




USDA/OIG-A/50601-9-AT                      Page 24
Exhibit A – Agency Response
                              Exhibit A - Page 5 of 5




USDA/OIG-A/50601-9-AT                      Page 25
